Faw
|

COCKE

2311 Douglas Street L 1B f E-Mail Address:
ega riers
Omaha, Nebraska 68102-1214 Est, 192% contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 20-1075

JOHN ROBERT REICHARD
and ERICKA RAE REICHARD,
Petitioners,
v.
RUSSELL BROWN, Chapter 13 Trustee,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 10th day of March, 2021, send out
from Omaha, NE 1 package(s) containing 3 copies of the BRIEF FOR RESPONDENT RUSSELL BROWN IN
OPPOSITION in the above entitled case. All parties required to be served have been served by third-party commercial carrier
for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
RUSSELL BROWN, ESQ.
Chapter 13 Trustee
Counsel of Record
3838 North Central Avenue, Ste. 800
Phoenix, Arizona 85012
(602) 277-8996
rflinn@ch13bk.com
rbrown@ch13bk.com

Subscribed and sworn to before me this 10th day of March, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Nebraska & 2 4 a
‘4 RENEE J. GOSS ( } tA. a L557

My Comm. Exp. September 5, 2023

 

 

Notary Public Affiant
Counsel of Record for Petitioners:

David Allegrucci

307 North Miller Road
Buckeye, AZ 85326
(623) 421-2330
alopllc@aol.com
